July 11, 2014

The Honorable Charles E. Grassley
Ranking Member
Committee on Finance
United States Senate
219 Dirksen Senate Office Building
Washington, DC 20510

The Honorable Tom Coburn
Ranking Member
Committee on Homeland Security and Governmental Affairs,
 Permanent Subcommittee on Investigations
United States Senate
340 Dirksen Senate Office Building
Washington, DC 20510

Via Electronic Transmission

Dear Senators Grassley and Coburn:

Thank you for your inquiry requesting that the U.S. Government Printing Office (GPO)
Office of Inspector General (OIG) provide information regarding: (1) all closed audits
and/or investigation conducted that were not disclosed to the public, (2) any instances
when GPO resisted and/or objected to oversight activities and/or restricted our access
to information, and (3) information regarding whether there are any OIG
recommendations with potential monetary benefits that the GPO has not yet fully
implemented.

We continue to work collaboratively with managers at GPO to improve operations. We
appreciate the Agency’s responsiveness to our findings and recommendations and its
commitment to corrective actions when needed.

We have addressed each of your questions below.




                                                                                           
The Honorable Charles E. Grassley
The Honorable Tom Coburn
July 11, 2014
Page 2 of 3

1. During the period October 1, 2012, through March 31, 2014, we issued nine non-
   public audit products to GPO senior managers. Detailed report numbers and titles
   are listed below.

     Report Number                                     Report Title

  13-03                Report on FDsys Compliance with FISMA as it Relates to Continuous Monitoring
  13-07                GPO Business Information System – Notification of Findings and
                       Recommendations Related to the General and Application Controls Testing – FY
                       2012 Audit of GPO’s Consolidated Financial Statements
  13-08                General Support System – Notification of Findings and Recommendations
                       Related to the General and Application Controls Testing – FY 2012 Audit of
                       GPO’s Consolidated Financial Statements
  13-11                Final Report FY 2012 Management Advisory Comments – Information Technology
  13-17                PPPS Compliance with FISMA as it Relates to Continuous Monitoring
  14-04                FTP Compliance with FISMA as it Relates to Continuous Monitoring
  14-05                ILS Compliance with FISMA as it Relates to Continuous Monitoring
  14-06                WebTA Compliance with FISMA as it Relates to Continuous Monitoring
  14-13                Review of Information Technology Controls in Support of the Consolidated
                       Financial Statements for the Year Ended September 30, 2013

   Our closed, non-public investigations for the same period consisted of 16
   investigative-related reports referred to GPO senior managers. Details are listed
   below.

       Case Number                                    Report Title

   10-0024-I           Vendor Violated Terms of Certificate of Independent Price Determination
   10-0027-I           Vendor Misrepresents Invoice Quantity
   10-0038-I           Vendor Violated Contract Terms
   12-0011-I           Employee Misconduct: Parking Program
   13-0001-I           Employee Misconduct: Prohibited Political Activity by GPO Employees
   13-0002-C           Employee Misconduct: Unreported Allegations of Illegal Drug Possession
   13-0005-I           Vendor Falsifies Documents
   13-0007-C           Employee Misconduct: Gambling on Government Property and Refusing to
                       Cooperate
   13-0011-C           Procurement of Law Enforcement Credential Stock
   13-0040-C           Federal Depository Library Program Planned October 2013 Conference
   13-0053-C           Report of Structured Query Language Injection Incident
   14-0001-C           Handling of a Suspicious Substance
   14-0001-I           Allegations of Workplace Violence
   14-0002-I           Use of a Commercial Vendor Could Save Money
   14-0011-I           Vendor Engaged in Unauthorized Subcontracting
   14-0013-I           Attempted Coercion of a Contracting Official




                                                                                                       
The Honorable Charles E. Grassley
The Honorable Tom Coburn
July 11, 2014
Page 3 of 3


   We can provide additional information about any of the closed non-public audits
   and/or investigations upon request.

2. The OIG has not experienced situations since October 1, 2013 (the scope of this
   response), where the Agency resisted or objected to OIG oversight in a significant
   manner. Furthermore, the OIG has not experienced any attempts with the goal of
   impeding our ability to communicate with Congress.

3. We continue to note that senior managers are actively engaged in working with the
   OIG to enhance awareness of and involvement in closing OIG recommendations. In
   our most recent Semiannual Report to Congress, we reported seven
   recommendations for which corrective action is in process but has not been
   completed in more than 1-year with potential monetary benefits.

We appreciate the oversight and welcome the opportunity to provide you with any
additional clarification you may need. We strive to maintain and strengthen our
communication between the OIG and Congress to ensure it is open, ongoing, and
transparent.

Should you need any other information, please do not hesitate to contact me at
(202) 512-0039.

Respectfully submitted,



Michael A. Raponi
Inspector General




                                                                                         
